                       National Archives and Records Administration
                                                                                            8601 Adelphi Road
                                                                           College Park, Maryland 20740-6001

Date       : September 11, 2006
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Advisory Report No. 06-15, OIG Monitoring of the Novell Netware/GroupWise Upgrade Project

To:         Allen Weinstein, Archivist of the United States (N)


           This is the second advisory report informing you of the status of the Novell NetWare/GroupWise
           Upgrade Project. As was the case when we issued the first advisory report for this project, based
           on efforts expended by NARA and contractor personnel to upgrade NARA’s computer network
           operating system and electronic mail software, it is our opinion that, since our first report was
           issued on June 20, 2006, the Novell NetWare/GroupWise Upgrade Project has continued to
           progress in a satisfactory manner. In fact, it appears that the project, which has encountered no
           major technical problems, may be completed ahead of the scheduled completion date, October 31,
           2006. Effort is underway at the last two NARA facilities, Archives I and St. Louis (Military
           Personnel Records), to upgrade the Novell software.

           We believe, and the NARA project manager agrees, that upgrading the operating system and
           electronic mail software to version 6.5 constitutes only an interim measure for solving the
           agency’s operating system and electronic mail software problems. This opinion is also shared by
           Gartner, an information technology research and advisory firm with over 10,000 clients, which
           has stated its belief that the Novell Corporation will continue to support the Netware operating
           system software, version 6.5, only until 2008. At that point, NARA will find itself in the same
           position that it is currently working to get out of, i.e., running obsolete network software. The
           Chief Information Officer is aware of the OIG position and has responded that Novell sales
           representatives have provided assurances that the Novell Corporation will continue to provide
           support as follows: “general support” through March 7, 2010; “extended support” through March
           7, 2012; and “self-support” through March 7, 2015. The OIG does not place reliability on these
           representations and notes that customized support “offered” from March 8, 2010 through March
           7, 2015 would likely be extremely costly. As a result, planning for the next software upgrade is
           critical and should begin as soon as the current upgrade project is completed. The need to begin
           planning for the next upgrade was previously discussed in OIG Report no. 06-09, Review of
           NARA’s Information Security Program, dated August 9, 2006.

           From the time the upgrade project was restarted in March 2006, we have been monitoring
           government and contractor personnel efforts associated with upgrading the Novell Netware
           operating system and GroupWise electronic mail software for NARA’s computer network.
           Specifically, we have assessed whether (a) the project is meeting cost and schedule requirements,


                                        NARA’s web site is http://www.nara.gov
and (b) management is taking timely action to correct any actual or potential problems with
project performance.

Our monitoring effort has consisted mainly of reviewing applicable project documentation,
including the Daily Summary Reports, Weekly Status Reports, Work Breakdown Structure, and
Implementation Schedule. We also reviewed the NetWare/GroupWise 2006 Product Plan;
NetWare 6.5 Upgrade Project Plan, Information Technology Support Services (ITSS) contract
modification no. 25, Software Upgrade, dated April 27, 2006; and the Technical Direction Letter
no. FY05-TDL-04: Completion of the NetWare/GroupWise Upgrade Project, dated May 23,
2005.

To date, the Novell NetWare/GroupWise Upgrade Project is proceeding ahead of schedule.
According to ITSS contract modification no. 25, the effort was scheduled to begin on March 6,
2006, and be completed on October 31, 2006. It now looks as if the project will be completed by
mid-September.

In our first advisory report, issued June 20, 2006, we reported that the migration effort was
completed at 10 facilities. As of August 24, 2006, the effort was complete at 34 facilities.

The upgrade project has encountered no major problems with performance or technical issues. As
of August 24, 2006, project personnel were addressing the following issues.

     a. The Chief Technical Officer said that the agency would no longer run any web services on
Novell Netware. However, effort remains to migrate this application (MPR Case Reference
Guide) to another platform. According to the NARA Project Manager, the necessary equipment
has been purchased and a Request for Change (RFC) issued to implement the change.

    b. There is an air conditioning issue in the equipment room at MPR. Too much heat is being
generated by the equipment in that room for the installed air conditioners. The agency is working
with the General Services Administration to resolve this problem.

     c. Caminosoft StandbyServer, software included in the upgrade project that allows for
redundant data storage and failover safety, is experiencing problems from both a performance and
a reliability perspective. This software replicates Netware servers, i.e., it connects to one or more
primary servers using a standard link to mirror data between the networked machines. This
creates a redundant environment, the purpose of which is to protect users against unnecessary
downtime. The problem is that, with StandbyServer running, data backups are running
approximately 10 times slower. This causes backups to run during the day which has an adverse
impact on network performance. In addition, there have been problems with the StandbyServer
servers failing over and recovering properly when required.

     d. As of June 28th, the contractor stopped delivering Netware Upgrade Project Weekly Status
Reports in a timely manner. These reports document (1) significant accomplishments for the
current period, (2) planned activities for the next reporting period, (3) technical project issues, (4)
action items, and (5) risk status. On August 10, 2006, the contractor submitted two reports for the
weeks of July 6 – 11 and July 20 – 26. Since then, the contractor has not delivered any other


                              NARA’s web site is http://www.nara.gov
weekly status reports. According to the NARA Project Manager, not having the reports has not
adversely impacted his management of the project.

In addition, the NARA Project Manager expressed the following concerns which, according to
him, made his management of the upgrade project more difficult: (a) a communications plan was
never finalized; (b) there was a lack of contractor project management continuity because the
Program Manager was frequently replaced; (c) necessary hardware for the migration was not
always acquired and delivered to NARA facilities in a timely manner; and (d) the contractor
Program Manager sometimes failed to hold required daily meetings with the Project Manager.
While these concerns appeared not to adversely impact the completion of the software upgrade
project, they should be included in the project “Lessons Learned” to benefit future NARA project
management efforts.

As part of our software upgrade monitoring effort, we are currently reviewing the following areas
which have come to our attention: (a) Presidential library Foundation computers and/or networks
connected to NARA’s computer network; (b) upgraded computer network performance and
reliability compared to performance and reliability before the upgrade; and (c) NARA file server
disk space utilization. The results of these reviews will be presented in future OIG Advisory
Reports.

If you have any questions concerning the information presented in this Advisory Report, or there
are other areas of the Novell software upgrade project that you would like for us to review, please
do not hesitate to contact me.




Paul Brachfeld
Inspector General


Cc: NH (M. Morphy)
    NHV (W. Day)




                             NARA’s web site is http://www.nara.gov
                 NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                            NETWARE MIGRATION
                             As of August 24, 2006


                                                  START
              TASK                 WBS                                FINISH DATE COMPLETED
                                                   DATE
        Netware Migration           1.6           3-15-06              10-12-06
1. Washington National
Records Center (Suitland)        1.6.4.2.2        4-25-06               5-01-06      Yes
(Pilot)
         Site Migrations           1.6.6          5-01-06              10-12-06
                                                                                      No
2. Archives I                     1.6.6.1         8-18-06                         See comment
                                                                                    (a) below
3. St. Louis – Civilian
                                  1.6.6.2         5-01-06               5-25-06      Yes
Personnel Records
4. Dwight D. Eisenhower
                                  1.6.6.3          5-1-06               7-20-06      Yes
Library
5. Federal Register               1.6.6.4         5-01-06               5-19-06      Yes
6. Harry S. Truman Library        1.6.6.5         5-02-06               5-26-06      Yes
7. Kansas City                    1.6.6.6         5-01-06               5-30-06      Yes
8. Lee’s Summit                   1.6.6.7         5-01-06               6-02-06      Yes
9. Lenexa                         1.6.6.8         5-11-06               6-07-06      Yes
10. Pittsfield                    1.6.6.9         5-26-06               6-19-06      Yes
11. Franklin D. Roosevelt
                                 1.6.6.10         5-17-06               6-14-06      Yes
Library
12. Waltham                      1.6.6.11         5-19-06               6-12-06      Yes
13. Anchorage                    1.6.6.12         5-18-06               6-19-06      Yes
14. Dayton                       1.6.6.13         5-12-06               6-16-06      Yes
15. Chicago                      1.6.6.14         5-11-06               6-23-06      Yes
16. Morrow                       1.6.6.15         5-15-06               6-23-06      Yes
17. Fort Worth                   1.6.6.16         5-10-06               6-29-06      Yes
18. George H. Bush Library       1.6.6.17         5-11-06               6-22-06      Yes
19. William J. Clinton Library   1.6.6.18         5-12-06               7-24-06      Yes
20. Lyndon B. Johnson Library    1.6.6.19         5-15-06               6-28-06      Yes
21. Gerald Ford Library          1.6.6.20         5-10-06               6-29-06      Yes
22. Gerald Ford Museum           1.6.6.21         5-12-06               7-07-06      Yes
23. San Bruno                    1.6.6.22         5-25-06               7-10-06      Yes
24. Riverside                    1.6.6.23         5-24-06               7-12-06      Yes
25. Seattle                      1.6.6.24         5-18-06               7-27-06      Yes

                             NARA’s web site is http://www.nara.gov
                 NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                            NETWARE MIGRATION
                             As of August 24, 2006

                                                      START
             TASK                      WBS                                FINISH DATE COMPLETED
                                                       DATE
26. Ronald W. Reagan Library         1.6.6.25         7-11-06               7-14-06       Yes
27. John F. Kennedy Library          1.6.6.26         5-22-06               7-28-06       Yes
28. Ellenwood                        1.6.6.27         5-10-06               8-02-06       Yes
29. Jimmy Carter Library             1.6.6.28         5-12-06               8-07-06       Yes
30. New York                         1.6.6.29         5-25-06               8-10-06       Yes
31. Philadelphia (Center City)       1.6.6.30         5-17-06               8-02-06       Yes
32. Philadelphia (Northeast)         1.6.6.31         5-25-06               7-27-06       Yes
33. Denver                           1.6.6.32         5-26-06               8-11-06       Yes
34. Archives II                      1.6.6.33          5-1-06              10-12-06       Yes
35. St. Louis – Military
                                     1.6.6.34          8-8-06               9-22-06       No
Personnel Records
36. Herbert C. Hoover Library        1.6.6.35         5-10-06               8-07-06       Yes


 Comment:

 (a) Flooding and power outages have delayed completion of the migration effort at this facility.




                                 NARA’s web site is http://www.nara.gov
                                    NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                                                TECHNICAL ISSUES




   DATE                                  ISSUE/ACTION ITEM                                    COMMENTS

March 7, 2006    Power and connectivity-related issues.                                         Resolved.
March 7, 2006    Mike Peckman’s delayed arrival.                                                Resolved
March 8, 2006    Licenses for Standby Server Software.                                          Resolved
March 8, 2006    SCSI cards for the servers to support the tape backup units.                   Resolved
                 Test the SCSI card versus internal SCSI adapter to determine if there
March 13, 2006                                                                                  Resolved
                 will be a performance issue during tape backups.
                 Information is needed from the Dwight D. Eisenhower Library to
March 20, 2006                                                                                  Resolved
                 determine when the migration can occur.
                 Explanation needed of how the FOSA sites will be covered when they
March 21, 2006                                                                                  Resolved
                 are pulled to support the site migrations.
                 Web services will not run on Netware, but nothing has been done to
March 22, 2006                                                                               Work in progress
                 migrate the application to another platform.
                 Determine if the Federal Register will get its own server, and if the
April 17, 2006                                                                                  Resolved
                 server will be located there or Archives II.
                 After the build of the Gerald R. Ford Museum is completed, there will
April 18, 2006                                                                                  Resolved
                 be 5 servers for 12 remaining sites.
                 Equipment may not be delivered to various field sites in time for site
April 18, 2006                                                                                  Resolved
                 deployment.
April 18, 2006   Problem with remote administrator software (RAdmin).                           Resolved
April 19, 2006   Servers missing.                                                               Resolved
April 28, 2006   Server crashes after Caminosoft software installation at Archives II.          Resolved
 May 1, 2006     Problem with the Point of Sale (POS) System.                                   Resolved



                                                    NARA’s web site is http://www.nara.gov
                                    NOVELL NETWARE/GROUPWISE UPGRADE PROJECT
                                                TECHNICAL ISSUES


    DATE                                 ISSUE/ACTION ITEM                                    COMMENTS

 May 1, 2006      “Memory leakage” problem discovered on Suitland server.                       Resolved
                  Air conditioning problem in the server room at the Military Personnel
 May 7, 2006                                                                                 Work in Progress
                  Records Center (MPR)..
                  “Memory leakage” problem at the Civilian Personnel Records Center
 May 23, 2006                                                                                   Resolved
                  (CPR).
 May 24, 2006     “Memory leakage” problem at the Harry S. Truman Library.                      Resolved
 May 25, 2006     Disk quotas causing some data to not be copied during server migration.       Resolved
 May 31, 2006     Upgrading of Foundation machines at the Presidential libraries.               Resolved
                  Archives I server and workstation migration delayed because of
 June 27, 2006                                                                                  Resolved
                  flooding and power outages.
                  A number of users at Archives II were unable to access their H, S, and
 July 18, 2006                                                                                  Resolved
                  K drives after the migration.
                  Several users at Archives II were unable to log in to the new network
 July 18, 2006                                                                                  Resolved
                  environment.
                  A large range of workstation baselines at Archives II contributed to
 July 20, 2006                                                                                  Resolved
                  various problems with the migration.
                  At Archives I, desktop migrations are moving along slower than
August 23, 2006                                                                                 Resolved
                  expected due to the layout of the building.
                  Problems with Caminosoft (backup software) from both a performance
August 25, 2006                                                                              Work in Progress
                  and a reliability perspective.




                                                    NARA’s web site is http://www.nara.gov
